VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                     Department of 

                                                                    Veterans Affairs
                                                                         Review of 

                                                                    Management of Health
                                                                     Care Center Leases




                                                                                  October 22, 2013
                                                                                   12-04046-307
             ACRONYMS AND ABBREVIATIONS

HCC          Health Care Center
OALC         Office of Acquisition, Logistics, and Construction
CFM          Office of Construction and Facilities Management
OIG          Office of Inspector General
RPS          Real Property Service
VA           Veterans Affairs
VHA          Veterans Health Administration
VISN         Veterans Integrated Service Network




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                             Telephone: 1-800-488-8244 

                            Email: vaoighotline@va.gov

                  (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Review of VA’s
                  Management of Health Care Center
                  Leases

Why We Did This Review                          on all HCC expenditures. Until effective
                                                central cost tracking is instituted,
In June 2012, the House Committee on            expenditures to acquire the leases will not
Veterans’ Affairs expressed concerns            fully be accounted for. VA also will not
regarding VA’s management of seven              have reasonable assurance of accuracy in
Health Care Center (HCC) leases. Public         reporting total HCC costs to Congress.
Law 111-82 authorized about $150.1 million
for HCC facility activations. We conducted      What We Recommended
this review to determine if VA effectively
managed timeliness and costs in the HCC         We recommended the Principal Executive
lease procurement process.                      Director, Office of Acquisition, Logistics,
                                                and Construction, and the Under Secretary
What We Found                                   for Health:
                                                	 Establish    adequate      guidance       for
VA’s management of timeliness and costs in         management of the procurement process
the HCC lease procurement process has not          of large-scale build-to-lease facilities.
been effective. As of August 2013, only          Provide realistic and justifiable timelines
four of seven leases had been awarded and          for HCC completion.
no HCCs had been built, despite VA’s target      Ensure HCC project analyses and key
completion date of June 2012.           This       decisions are supported and documented.
occurred because the HCCs were a new
                                                	 Establish central cost tracking to ensure
initiative and guidance was not available for
                                                   transparency and accurate reporting on
planning leases of this magnitude.
                                                   HCC expenditures.
VA did not meet the milestones it
established for HCC activation and              Agency Comments
occupancy in spite of providing Congress
with an aggressive project schedule. Given      The Principal Executive Director, Office of
the lack of progress to date and the            Acquisition, Logistics, and Construction,
inadequate planning documentation, it will      and the Under Secretary for Health
take far more time than Congress anticipated    concurred with our recommendations. We
for VA to award and activate the seven          consider the corrective action plans they
leases.                                         submitted acceptable and will follow up on
                                                their implementation.
Further, VA could not provide accurate
information on HCC spending into
April 2013; officials provided various
estimates, from about $4.6 million to
$5.1 million, on costs to prepare for HCC                  LINDA A. HALLIDAY
lease awards. According to VA officials,               Assistant Inspector General
central cost tracking was not in place to               for Audits and Evaluations
ensure transparency and accurate reporting

                                                                                               i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding                VA’s Management of Health Care Center Leases Needs Improvement ............2
 

                           Recommendations ...............................................................................................7
 

Appendix A                  Background ....................................................................................................... 9
 

Appendix B                  Scope and Methodology ................................................................................. 11
 

Appendix C                  Status of Health Care Center Leases as of August 2013 ................................ 13
 

Appendix D                  Principal Executive Director, Office of Acquisition, Logistics, and 

                            Construction Comments.................................................................................. 14
 

Appendix E                  Under Secretary for Health Comments ........................................................... 16
 

Appendix F                  Office of Inspector General Contact and Staff Acknowledgments ................ 19
 

Appendix G                  Report Distribution ......................................................................................... 20
 




                                                                                                                                                 ii
                                                       Review of VA’s Management of HCC Leases



                    INTRODUCTION
Objective           The VA Office of Inspector General (OIG) performed this review to
                    determine whether VA effectively managed the lease procurement process
                    for seven Health Care Centers (HCCs) authorized by Public Law 111-82.
                    We focused on timeliness and costs in the HCC lease procurement process.

Health Care         An HCC is a large-scale outpatient clinic positioned to provide all the
Centers             medical services of a hospital, excluding inpatient beds. Inpatient services
                    are provided by VA Medical Centers or affiliated providers. The Veterans
                    Health Administration (VHA) proposed HCC leases as alternatives to
                    undertaking major construction projects aimed at addressing major facility
                    capital needs and patient workload requirements. HCC lease procurements
                    are the joint responsibility of VHA and the Office of Construction and
                    Facilities Management’s (CFM) Real Property Service (RPS). VHA
                    provides requirements at project initiation, as well as funding for HCC
                    leases. RPS provides day-to-day management of all lease procurement
                    activities from project initiation to lease award.

                    In October 2009, Congress passed Public Law 111-82 authorizing
                    about $150.1 million that may be used for seven HCC leases in Montgomery,
                    AL; Loma Linda, CA; Monterey, CA; Charlotte, NC; Fayetteville, NC;
                    Winston-Salem, NC; and Butler, PA.

Congressional       In a June 2012 letter to the Secretary of Veterans Affairs, the Chairman of
Concern Over        the U.S. House of Representatives Committee on Veterans’ Affairs
HCC
Management
                    expressed concern with VA’s management of activities to award, construct,
                    and activate the seven HCCs. The letter focused on VA’s delays in
                    completing the HCCs and a lack of transparency in reporting to Congress on
                    HCC project status. The letter requested a detailed account of the status of
                    each HCC, including all actions taken and costs incurred to date, estimates
                    associated with costs going forward, updated prospectus information, and
                    estimated HCC completion dates. VA provided this information in August
                    2012.

Other               The following appendixes provide additional information.
Information
                    	 Appendix A provides pertinent background information.
                    	 Appendix B provides details on our scope and methodology.
                    	 Appendix C provides the status of the seven HCC leases as of
                       August 2013.




VA Office of Inspector General                                                                1
                                                       Review of VA’s Management of HCC Leases



                    RESULTS AND RECOMMENDATIONS
Finding             VA’s Management of Health Care Center Leases Needs
                    Improvement

                    VA’s management of timeliness and costs in the HCC lease procurement
                    process has not been effective. As of August 2013, only four of seven leases
                    had been awarded and no HCCs had been constructed and occupied, despite
                    VA’s target completion date of June 2012. This occurred because the HCCs
                    were a new initiative and guidance was not available for planning leases of
                    this magnitude. VA officials also could not provide justification for the
                    project schedule presented to Congress. Given the lack of progress to date
                    and the inadequate planning documentation, it will take far more time than
                    Congress anticipated for VA to award and activate the seven leases.

                    Further, VA could not provide accurate information on HCC spending into
                    April 2013; officials provided various estimates, from about $4.6 million to
                    $5.1 million, on costs to prepare for HCC lease awards. According to VA
                    officials, central cost tracking was not in place to ensure transparency and
                    accurate reporting on all HCC expenditures. Until effective central cost
                    tracking is instituted, expenditures to acquire the leases will not be fully
                    accounted for. VA also will not have reasonable assurance of accuracy in
                    reporting total HCC expenditures to Congress.

Established         VA did not meet the milestones it established for HCC activation and
Milestones          occupancy. In accordance with Title 38 United States Code § 8104,
Not Met
                    Congressional Approval of Certain Medical Facility Acquisitions, VA
                    submitted prospectuses for seven HCC projects as part of
                    the 2010 Congressional Budget Submission. These prospectuses identified
                    the budget authority for each HCC, descriptions of the lease, narratives of
                    considered alternatives, and demographic data for the veteran population and
                    enrollment in the service area.

                    The prospectuses also identified a schedule for each HCC that provided
                    milestone dates for lease award, construction completion, and
                    activation/occupancy. VA established identical milestone dates for all seven
                    HCC projects outlined in the prospectuses submitted to Congress even
                    though the projects varied in size. Specifically, VA allotted 10 months to
                    award each lease, and 22 months for construction and activation.




VA Office of Inspector General                                                                2
                                                        Review of VA’s Management of HCC Leases


                    Table 1 outlines the planned milestones for all HCC projects as outlined in
                    the prospectuses.

Table 1
                          Planned HCC Milestones Established by 2010 Prospectus Data
                                     Milestone                                 Date
                      HCC Authorization                                    October 2009
                      Lease Award                                          August 2010
                      Construction Completion                                 May 2012
                      Activation/Occupancy                                    June 2012
                      Source: OIG analysis of Public Law 111-82, and VA’s 2010 Congressional
                      Budget Submission

                    As indicated, VA planned to have seven HCCs activated and occupied by
                    June 2012. However, as of August 2013, only four of seven HCC leases had
                    been awarded. The Butler, PA, lease was awarded in May 2012. The VA
                    OIG conducted a review and issued an advisory memo to the Office of
                    Acquisition, Logistics, and Construction (OALC) raising concerns about the
                    contractor’s misrepresentations. Based on its review, OALC issued a stop
                    work order to the prime contractor in June 2013 and terminated the lease in
                    August 2013. The Fayetteville, NC, lease was awarded in September 2012;
                    and the Montgomery, AL, and Winston-Salem, NC, HCC leases were
                    awarded in May 2013. None of these facilities have been constructed or
                    occupied. The other three HCC projects remain in various stages of the
                    lease-acquisition process. Appendix C provides the status of all seven HCC
                    projects as of August 2013.

Lack of             VA did not have specific guidelines in place to account for all the steps and
Appropriate         time required for lease projects with such high costs as those of the new
Guidance To
Support the
                    HCC initiative. VA Handbook 7816, Lease Management Procedures,
Schedule for        stipulated a timeline of 21 to 35 months for prospectus-level leases with
Establishing the    annual costs exceeding $600,000 per year. VA planned 32 total months for
HCCs                completion of the seven HCC facilities, with annual lease costs ranging from
                    $3.8 million to $16.2 million. VA’s plans fell within the established time
                    frames, but the costs were well beyond the dollar range provided in the
                    handbook. Documentation was not available to support whether or not VA
                    applied the criteria in the handbook in planning and establishing the HCC
                    schedules.

                    VA proceeded with a two-step acquisition process that did not build in
                    adequate time for acquiring the seven large HCC projects. The two-step
                    process separated land acquisition and the contractor selection into different
                    phases, which gave VA more control over facility location. This process
                    allowed VA to select a preferred site by negotiating an assignable option

VA Office of Inspector General                                                                  3
                                                        Review of VA’s Management of HCC Leases


                    contract for land. The terms of this contract could then be included in a
                    solicitation for a contractor to build the facility. Appendix A provides
                    additional information on VA’s lease-acquisition process.

                    VA should have lengthened the 32-month HCC timelines to accommodate
                    the two-step approach that included land acquisition. VA presentations
                    depicted that the two-step process would add 8 to 9 months to each overall
                    lease acquisition. For example, our analysis of the site selection process
                    included the time VA took from posting the solicitation for the land to
                    executing the land option agreement. The initial project schedule in the
                    prospectuses planned for 165 days for HCC site selection. However, we
                    determined that the actual site selection process ranged from 323 to
                    646 days, for an average of 416 days for the seven HCC sites. This average
                    constituted more than two and a half times the number of days VA initially
                    allotted for HCC site selection.

                    According to the current Director of RPS, facility size should affect the time
                    required to acquire a lease. Larger parcels of land would be needed, which
                    are shorter in supply and require more extensive purchase negotiations.
                    Also, larger parcels of land would require more time for VA to meet
                    requirements of the National Environmental Policy Act. Given the
                    requirements posed by using larger parcels of land, VA should have
                    scheduled additional time to acquire the seven HCC facilities.

Lack of             VA did not adequately document key decisions related to the planning of
Documentation       HCC projects. Correspondence between key stakeholders clearly indicated
and Support for
Established
                    that an aggressive approach was intended for the HCC projects. However,
Timelines           planning documentation was not available to support whether VA adequately
                    assessed the feasibility of accomplishing the HCCs in the promised
                    32-month time frame.

                    For example, RPS did not finalize an official, signed acquisition plan for the
                    seven HCCs until June 2012, a full 32 months after authorization of the
                    projects. An acquisition plan identifies, coordinates, and integrates the
                    efforts of all personnel responsible for the lease procurement in order to
                    fulfill agency needs in a timely manner at a reasonable cost. Without such a
                    plan, VA lacked a coordinated strategy to support accomplishing the
                    aggressive HCC schedule.

                    In addition, VA’s aggressive time frames for accomplishing the HCC lease
                    acquisitions differed from how VA typically managed other lease
                    acquisitions. The current Director of RPS indicated that VA leasing
                    schedules generally allowed more time in certain areas as compared with
                    HCC timelines. Specifically:

                    	 Market surveys generally require 3 weeks but were scheduled to be
                       completed within 5 days for each HCC.

VA Office of Inspector General                                                                  4
                                                        Review of VA’s Management of HCC Leases


                    	 Task orders generally require 30 days but were scheduled to be processed
                       within 10 days for each HCC.
                    	 Issuance of a solicitation for offers generally requires 45 days but was
                       scheduled to be done within 30 days for each HCC.

HCC                 In the absence of detailed guidance and supporting justification, VA did not
Establishment       have a sufficient basis for establishing the 32-month time frame when
Will Require
More Time
                    assembling the HCC prospectus schedules. As such, the schedule for HCC
                    establishment has proven unattainable. The HCC projects will require more
                    time than Congress expected, in comparison to what VA promised in its
                    prospectuses.

No Central          VA could not provide complete financial information on the seven HCCs.
Tracking to         VHA delegates funds tracking to project-level management at the Veterans
Ensure
Accurate HCC
                    Integrated Service Networks (VISNs) and RPS. VHA’s former Chief
Cost Data           Financial Officer said VHA headquarters would need to request HCC
                    information from this level to compile a complete picture of costs. Although
                    project-level management at the VISNs and RPS tracked HCC financial
                    information, neither could provide complete data and support regarding the
                    total costs incurred to procure HCC leases.

                    For example, individual VISNs could only provide financial information
                    they spent on each HCC lease for which they were responsible. The VISNs
                    did not capture all project costs, such as architect engineering services that
                    are managed at RPS. We could not identify a common fund code across the
                    VISNs for each HCC so costs could be systematically extracted from VA’s
                    Financial Management System.

                    Further, RPS personnel could not readily provide complete financial
                    information for all HCC expenses. RPS is responsible for the day-to-day
                    management of all lease procurement activities from project initiation to
                    lease award, including tracking associated expenses. RPS provided us
                    versions of summary expense data in January, February, and April 2013
                    ranging from $4.6 million to $5.1 million that we could not consistently
                    verify against available supporting documentation.




VA Office of Inspector General                                                                  5
                                                           Review of VA’s Management of HCC Leases


                    Table 2 illustrates HCC expenditures as reported by RPS.

Table 2
                                         Total HCC Costs Reported by RPS
                         HCC Facility            Initial           Corrected          Final
                      Montgomery, AL            $420,071            $572,073         $628,253
                      Loma Linda, CA            $979,582            $979,582        $1,034,932
                      Monterey, CA              $556,112            $642,930         $742,930
                      Charlotte, NC             $486,842            $437,142         $487,142
                      Fayetteville, NC        $1,132,187          $1,164,145        $1,164,861
                      Winston-Salem, NC         $491,396            $488,503         $488,503
                      Butler, PA                $568,608            $568,608         $568,608
                        Total                 $4,634,798          $4,852,983        $5,115,229
                      Source: RPS-reported expenditures into April 2013

                    In the absence of a central point for tracking HCC expenditures, we
                    attempted to provide an independent reconstruction of total costs incurred for
                    each of the seven individual sites into April 2013. We analyzed supporting
                    documentation, including task orders, associated invoices, and payment
                    history from VA’s Financial Management System.                    Using this
                    documentation, we were able to establish obligations, identify liabilities, and
                    verify payments. Based on our analysis, we determined that invoice records
                    were the most complete representation available of total costs incurred for
                    each HCC.

                    We calculated that VA had spent about $5.1 million on HCCs for
                    architecture-engineer services, due diligence services such as environment
                    studies and title verification, and land option contracts into April 2013. Our
                    cost calculation was similar to RPS’s final total of $5.1 million; however, we
                    had no reasonable assurance that this figure represented a complete
                    accounting of HCC costs. Until effective central cost tracking is instituted,
                    expenditures to acquire the HCC leases will remain unclear and there will be
                    a lack of transparency to support accountability reporting to Congress.

Conclusion          The seven HCCs did not meet the schedules established in the prospectus
                    submitted to Congress. VA did not have detailed guidance that included all
                    requirements for planning and acquiring such large-scale real-property
                    leases. HCC delivery schedules were promised to Congress without
                    sufficient supporting justification and documentation on the feasibility of the
                    timelines. VA will require more time than anticipated to acquire all seven
                    HCCs. Further, because central oversight and cost tracking had not been
                    established, VA lacked transparency for HCC expenditures. As such, the


VA Office of Inspector General                                                                   6
                                                         Review of VA’s Management of HCC Leases


                    total costs necessary and expended to acquire the HCC leases remained
                    unclear.

                    Recommendations

                    1.	 We recommended the Principal Executive Director, Office of
                        Acquisition, Logistics, and Construction, in coordination with the Under
                        Secretary for Health, establish adequate guidance for the procurement of
                        large-scale build-to-lease facilities.
                    2.	 We recommended the Principal Executive Director, Office of
                        Acquisition, Logistics, and Construction, in coordination with the Under
                        Secretary for Health, provide realistic and justifiable timelines for award,
                        construction, and activation of the Health Care Center leases.
                    3.	 We recommended the Under Secretary for Health, in coordination with
                        the Principal Executive Director, Office of Acquisition, Logistics, and
                        Construction, ensure supporting analyses and key decisions regarding the
                        Health Care Center leases are supported and documented.
                    4.	 We recommended the Under Secretary for Health, in coordination with
                        the Principal Executive Director, Office of Acquisition, Logistics, and
                        Construction, establish central cost tracking to ensure transparency and
                        accurate reporting on Health Care Center expenditures.

OALC’s              The Principal Executive Director, OALC, agreed with our recommendations
Management          and acknowledged that OALC will take the lead in implementing
Comments
                    Recommendations 1 and 2. The Principal Executive Director stated that
                    OALC is working to update the Lease Based Outpatient Clinic Design Guide
                    to establish clear guidance and uniformity in VA’s lease procurement
                    process, to include specific directions pertaining to large-scale, build to suit
                    facilities. OALC estimates completion of the guide by August 2014.

                    Further, the Principal Executive Director stated that OALC is re-baselining
                    VA’s lease procurement timelines through implementation of Integrated
                    Master Schedules. Specifically, VA has created a Master Baseline Lease
                    Procurement Schedule that considers various factors that have historically
                    contributed to extended timelines, and can be altered to account for project
                    specific determinations. The Principal Executive Director identified that
                    this effort revealed an average schedule of 26 months to awards, 26 to 30
                    months for build-out, and 3 to 6 months for activation. Also, VA leases
                    submitted into the FY 2013-2014 budget indicate these durations rather than
                    dates. The Integrated Master Schedules for all major lease procurements
                    are scheduled to be implemented in November 2013. Appendix D provides
                    the full text of the Principal Executive Director’s comments.




VA Office of Inspector General                                                                    7
                                                        Review of VA’s Management of HCC Leases


VHA’s               The Under Secretary for Health agreed with our findings and
Management          Recommendations 3 and 4. The Under Secretary stated that all leases will be
Comments
                    submitted and reviewed through VA’s Strategic Capital Investment Planning
                    process, which requires an analysis of alternatives for each project proposed
                    for budget consideration which will document key decisions and supporting
                    documentation. VHA anticipates implementation of this process by
                    September 30, 2014.

                    Further, VHA will send the annual approved VA Office of Management
                    approved lease operation plan to VISN Capital Asset Managers to ensure it is
                    disseminated to medical center Chief Engineers and Fiscal staff. Also, VA
                    Medical Center Chief Engineers will request a Lease Accounting
                    Classification Code for all approved Strategic Capital Investment Plan
                    leases. This code will capture all lease costs associated with a project which
                    will then be input into VA’s Financial Management System for central
                    tracking.     VHA anticipates implementation of these processes by
                    September 30, 2014. Appendix E provides the full text of the Under
                    Secretary’s comments.

OIG Response        The Principal Executive Director’s and Under Secretary’s comments and
                    corrective action plans are responsive to the intent of the recommendations.
                    We will monitor implementation of planned actions and will close
                    recommendations when we receive sufficient evidence demonstrating
                    progress in addressing the issues identified.




VA Office of Inspector General                                                                  8
                                                         Review of VA’s Management of HCC Leases


Appendix A          Background

HCC Initiative      Title 38 United States Code § 8104 stipulates that funds may not be
                    appropriated for major medical facility construction or leases with total
                    expenditures of more than $10 million or average annual rent of more
                    than $1 million, respectively, unless funds have been specifically authorized
                    by law. In accordance with this law, VHA’s annual budget submission
                    included a list of capital asset needs submitted for individual approval by
                    Congress. By FY 2010, VHA’s list of unfunded major construction needs
                    exceeded $9.1 billion, while annual budget allotments averaged about
                    $805 million, or about 8.8 percent, for the previous 5 years. Due to these
                    funding constraints, VA identified the need for an efficient alternative to
                    providing major medical facilities to meet patient workload requirements.

                    As part of its FY 2008 Asset Management Plan, VHA commissioned studies
                    to assess the feasibility of leasing facilities in lieu of major construction. VA
                    determined that leasing major outpatient clinics, or HCCs, would provide the
                    flexibility to increase veterans’ accessibility to services and address critical
                    outpatient needs without the need for additional major construction funding.

                    According to the Director of VHA’s Office of Capital Asset Management
                    and Support, upon approval of the HCC initiative, they reviewed the list of
                    capital asset needs, solicited feedback from the VISNs, and assembled a list
                    of sites where HCC leases would be feasible. VA submitted prospectuses for
                    seven HCC projects in the FY 2010 Congressional Budget Submission.
                    Subsequently,      Congress       passed    Public   Law      111-82      in
                    October 2009 authorizing about $150.1 million in funding that may be used
                    for seven HCC leases. Funding was not earmarked for the HCCs.

                    Table 3 identifies the specific funding authorized for each facility.
Table 3
                                  Allowable HCC Funding Under Public Law 111-82
                                     HCC Facility                            Expenditures
                        Montgomery, AL                                         $9,943,000
                        Loma Linda, CA                                        $31,154,000
                        Monterey, CA                                          $11,628,000
                        Charlotte, NC                                         $30,457,000
                        Fayetteville, NC                                      $23,487,000
                        Winston-Salem, NC                                     $26,986,000
                        Butler, PA                                            $16,482,000
                          Total                                              $150,137,000
                      Source: VA funding received under Public Law 111-82, passed October 26, 2009

VA Office of Inspector General                                                                     9
                                                              Review of VA’s Management of HCC Leases


VA’s Lease-         According to VA Directive 7815, Acquisition of Real Property by Lease and
Acquisition         by Assignment from General Services Administration, RPS is responsible for
Process
                    the procurement of leases with annual unserviced rent of $300,000 or more.
                    The average estimated annual rent for the seven HCC projects was about
                    $9.9 million. Therefore, RPS had management responsibility for the HCC
                    lease-acquisition process.

                    In general, RPS used a two-step lease-acquisition process, separating land
                    procurement from solicitation of a contractor to build a facility. This
                    allowed VA the flexibility to select a site that would best meet the needs of
                    the organization and veterans. Once a site is selected, RPS negotiates an
                    assignable land option contract that provides VA the exclusive right to hold
                    the property for the offeror that is eventually awarded the lease. The offeror
                    purchases the site from the owner and constructs the building for the purpose
                    of leasing it to VA. This process was used for six of the HCC projects, with
                    Butler, PA, as the lone exception.

                    A one-step site selection process was used for a seventh HCC project. Under
                    this approach, the offeror proposed its own site for the facility and proceeded
                    to construct a building on that site. According to RPS officials, VA does not
                    benefit financially from either HCC approach. The two-step acquisition
                    process simply allows VA to preselect a facility location.

                    The figure below provides an overview of the lease-acquisition process,
                    beginning with site selection and progressing through lease award, design,
                    and construction. Once the process is complete, RPS delegates responsibility
                    for the HCC to the responsible VISN or VA medical facility.

Figure                                       HCC Lease-Acquisition Process

                                                Develop                               Receive/
                                                                       Issue
                           Site Selection       Contract                              Evaluate 
                                                                    Solicitation
                                              Requirements                             Offers


                                                                     Drawing 
                                               Post‐Award 
                            Lease Award                            Development/      Permitting
                                                Meeting               Design


                                                                                        Lease 
                            Construction           Final            Acceptance 
                                                                                    Delegation to 
                               Phase            Inspection           of Space
                                                                                        Field



                               Clinic 
                             Activiation


                     Source: OIG analysis of VA’s lease-acquisition process

VA Office of Inspector General                                                                       10
                                                       Review of VA’s Management of HCC Leases


Appendix B          Scope and Methodology

                    We conducted our review work from November 2012 through
                    August 2013. We reviewed lease procurement activities and controls over
                    funding related to the seven HCCs authorized by Public Law 111-82.

                    We identified and reviewed applicable Federal laws and regulations, prior
                    OIG audit reports, and VA policies related to the HCC initiative and similar
                    VA leasing processes. We also reviewed transcripts from previous
                    congressional hearings on VA’s major construction and capital asset
                    management programs.

                    We obtained and reviewed relevant documentation for the seven HCCs for
                    the period from October 2009 through August 2013. We reviewed contract
                    files for each HCC to determine if unnecessary delays occurred and if key
                    project decisions were documented. We interviewed key personnel at the
                    Office of Asset Enterprise Management, VHA’s Office of Capital Asset
                    Management and Support, and RPS, including the RPS project manager for
                    each HCC.

                    We obtained and reviewed task orders, invoices, and payment documentation
                    for all obligations and costs incurred related to HCCs for the period from
                    October 2009 into April 2013. However, we could not identify a systematic
                    method to extract HCC financial data from VA’s Financial Management
                    System to compile total HCC costs. We interviewed key personnel at
                    VHA’s Office of Finance, VISN fiscal offices, and RPS, and requested
                    supporting documentation related to HCC expenditures.

Data Reliability    To assess the reliability of the Financial Management System data
                    information provided by RPS and VHA, we performed testing, such as
                    comparison of invoiced amounts and paid FMS data, for obvious errors in
                    accuracy and completeness. Then we reviewed contract documentation,
                    including task orders and land option agreements, related to the data for
                    verification. In addition, we worked closely with knowledgeable RPS and
                    VHA officials to identify any data problems.

                    When we found discrepancies (such as missing invoice data and task order
                    documentation), we brought them to the attention of RPS and/or VHA
                    officials for correction. We subsequently conducted our analysis and
                    documented data limitations with respect to any errors and omissions in the
                    data that affected our analysis. From these efforts, we determined that the
                    data used were sufficiently reliable for the purposes of this report.

Government          Our assessment of internal controls focused on those controls related to our
Standards           review objective. We conducted our review in accordance with Quality
                    Standards for Inspections and Evaluations published by the Council of
                    Inspectors General on Integrity and Efficiency. These standards guide the

VA Office of Inspector General                                                               11
                                                      Review of VA’s Management of HCC Leases


                    conduct of all inspection work performed by Offices of Inspectors General.
                    Accordingly, we believe the evidence obtained provides a reasonable basis
                    for our findings and conclusions based on our review objective.




VA Office of Inspector General                                                             12
                                                                                             Review of VA’s Management of Health Care Center Leases


Appendix C Status of Health Care Center Leases as of August 2013

                                                        Status of Health Care Center Leases
                                                                                                                 Lease Award           Target
    HCC Facility                                               Status
                                                                                                                 (Anticipated)       Completion
                        Assignable option contract for land signed in December 2011. Lease awarded in
 Montgomery, AL                                                                                                      May 2013      December 2015
                        May 2013. According to RPS officials, post-award design is underway.
                        Assignable option contract for land signed in November 2012. Solicitation for
                        offers issued in December 2012. Offer due date amended to February 2013.
 Loma Linda, CA                                                                                                September 2013           June 2015
                        According to RPS officials, the pre-award review and approval process is
                        underway.
                        Assignable option contract for land signed in November 2012. Solicitation for
 Monterey, CA           offers issued and pre-bid conference held in November 2012. According to RPS           September 2013         March 2016
                        officials, the pre-award review and approval process is underway.
                        Assignable option contract for land signed in August 2011. Solicitation for
 Charlotte, NC          offers issued and pre-bid conference held in January 2013. According to RPS               August 2013         Spring 2016
                        officials, the pre-award review and approval process is underway.
                        VA executed the seventh extension of the assignable option contract for land in
                        December 2012. Two bid protests were filed in October 2012 and both were
 Fayetteville, NC       denied and resolved in January 2013. According to RPS officials, the project is        September 2012      December 2015
                        in the design phase and preliminary site work is anticipated to begin in the fall
                        of 2013.
                        Assignable option contract for land signed February 2012. Solicitation for offers
                        issued August 2012. Lease awarded in May 2013. A bid protest was filed in
 Winston-Salem, NC                                                                                                   May 2013           July 2015
                        June 2013 and resolved in July 2013. According to RPS officials, post-award
                        design is underway.
                        Lease was awarded in May 2012. According to RPS officials, construction was
 Butler, PA             set to begin the spring of 2013. Following its consideration of a review by the              May 2012       Undetermined
                        VA OIG, OALC decided to terminate the contract for cause in August 2013.
 Source: VA OIG Analysis of HCC Lease Documentation



VA Office of Inspector General                                                                                                                    13
                                               Review of VA’s Management of Health Care Center Leases


Appendix D           Principal Executive Director, Office of Acquisition,
                     Logistics, and Construction Comments



                Department of                                Memorandum
                Veterans Affairs
        Date:	      September 25, 2013

        From:	      Principal Executive Director, Office of Acquisition, Logistics, and
                    Construction (003)

        Subj:	      OIG Draft Report: Review of Management of Health Care Center Leases,
                    Project No. 2012-04046-D2-0202 (VAIQ 7391293)

          To:       Assistant Inspector General for Audits and Evaluations (52)


                 1. 	 The Assistant Inspector General for Audits and Evaluations requested
                      comments on the findings and recommendations of the draft report, “A
                      Review of Management of Health Care Center Leases,” to determine
                      whether the Department of Veterans Affairs (VA) effectively managed the
                      lease procurement process for seven Health Care Centers (HCC)
                      authorized by Public Law 111-82; focusing on the timeliness and costs of
                      the HCC lease procurement process.

                 2. 	 The Office of Acquisition, Logistics, and Construction (OALC) has
                      completed its review of the draft report and concurs with each of the
                      recommendations. OALC, in consultation with the Veterans Health
                      Administration has determined that OALC will take the lead in implementing
                      Recommendations 1and 2, and as recommended, will coordinate with the
                      Under Secretary for Health on Recommendations 3 and 4. As such, OALC
                      provides the following comments.
                    a. Recommendation 1: We recommend the Under Secretary for Health, in
                    coordination with the Executive in Charge of the Office of Acquisition,
                    Logistics, and Construction, establish adequate guidance for the
                    procurement of large-scale build-to-lease facilities.

                    OALC Response: Concur. OALC is currently updating the Lease Based
                    Outpatient Clinic Design Guide that will allow for clear guidance and
                    uniformity in VA’s lease procurement process. OALC will include specific
                    direction within this document regarding large-scale, build to suit facilities.

                    An enhanced section regarding large-scale, build-to-suit leases will be
                    included within the Design Guide on or before August 2014. A reference will




  VA Office of Inspector General                                                                      14
                                       Review of VA’s Management of Health Care Center Leases




              Page 2. 

              OIG Draft Report: Review of Management of Health Care Center Leases, 

              Project No. 2012-04046-D2-0202 (VAIQ 7391293) 



              be included in “VA Handbook 7815, Acquisition of Real Property by Lease 

              and by Assignment from General Services Administration” on or before 

              November 2013. Estimated completion date: August 2014

              b. Recommendation 2: We recommend the Under Secretary for Health, in
              coordination with the Executive in Charge of the Office of Acquisition,
              Logistics, and Construction, provide realistic and justifiable timelines for
              award, construction, and activation of the Health Care Center leases.

              OALC Response: Concur. OALC is re-baselining VA’s lease procurement
              timelines through a programmatic implementation of Integrated Master
              Schedules. VA has created a Master Baseline Lease Procurement
              Schedule that takes into account the various factors that have historically
              contributed to expansion of lease procurement timelines. Additionally, the
              Baseline Lease Procurement can be altered to account for project-specific
              determinations, such as selecting either a one- or two-step lease
              procurements. This re-baseline has revealed an average schedule of 26
              months to award, 26-30 months for build-out, and 3-6 months for activation.
              VA’s current leases that are submitted into the fiscal years 2013-2014
              budget indicate these durations, rather than dates, to account for any delays
              in receiving authorization.

              The Integrated Master Schedules for all major lease procurements,
              including the Heath Care Centers (HCCs), are scheduled to be implemented
              in November 2013. Estimated completion date: December 2013.

           3. Should you have any questions regarding this submission, please contact
              Ms. Annette M. Powe, at (202) 632-4606 or annette.powe@va.gov.




VA Office of Inspector General                                                                15
                                                  Review of VA’s Management of Health Care Center Leases


Appendix E               Under Secretary for Health Comments


                Department of
                Veterans Affairs
                                                                 Memorandum
         Date:	      September 26, 2013

        From:	       Under Secretary for Health (10)

         Subj:	      OIG Draft Report, Review of Management of Health Care Center Leases
                     (VAIQ 7397773)

          To:        Assistant Inspector General for Audits and Evaluations (52)


                  1. Thank you for the opportunity to review the draft report. I have reviewed the
                     draft report and concur with the findings for Recommendations 3 and 4.
                     Attached is the action plan addressing Recommendations 3 and 4.

                  2.	 The Veterans Health Administration (VHA) will work collaboratively with the
                      Department of Veterans Affairs, Office of Acquisition, Logistics, and
                      Construction to address any joint recommendations.

                  3. If you have any questions, please contact Karen M. Rasmussen, M.D., Acting
                     Director, Management Review Service (10AR) at (202) 461-6643.




                     Attachment




VA Office of Inspector General                                                                       16
                                       Review of VA’s Management of Health Care Center Leases


                                                                           ATTACHMENT

                      VETERANS HEALTH ADMINISTRATION (VHA)
                                  Action Plan

OIG Draft Report, Review of Management of Health Care Center Leases (VAIQ
7397773)

Date of Draft Report: August 22, 2013

Recommendations/                       Status                       Completion
Actions                                                             Date


Recommendation 1. We recommend the Executive in Charge of the Office of
Acquisition, Logistics, and Construction, in coordination with the Under
Secretary for Health, establish adequate guidance for the procurement of large-
scale build-to-lease facilities.

Executive in Charge of the Office of Acquisition, Logistics, and Construction will provide
action plan.


Recommendation 2. We recommend the Executive in Charge of the Office of
Acquisition, Logistics, and Construction, in coordination with Under Secretary for
Health, provide realistic and justifiable timelines for award, construction, and
activation of the Health Care Center leases.

Executive in Charge of the Office of Acquisition, Logistics, and Construction will provide
action plan.


Recommandation 3.       We recommend the Under Secretary for Health, in
coordination with the Executive in Charge of the Office of Acquisition, Logistics,
and Construction, ensure supporting analyses and key decision regarding the
Health Care Center leases are supported and documented.

VHA Comments: Concur

All leases, including Health Care Center leases, will be submitted and reviewed through
Department of Veterans Affairs (VA) Strategic Capital Investment Planning (SCIP)
process to ensure each initiative fulfills medical center gaps for access, utilization,
and/or space. The SCIP process requires an analysis of alternatives for each project
proposed for budget consideration which will document key decisions and supporting
documentation.

                                       In process                   September 30, 2014


VA Office of Inspector General                                                            17
                                     Review of VA’s Management of Health Care Center Leases


Recommandation 4.       We recommend the Under Secretary for Health, in
coordination with the Executive in Charge of the Office of Acquisition, Logistics,
and Construction, establish central cost tracking to ensure transparency and
accurate reporting on Health Care Center expenditures.

VHA Comments: Concur

   a. 	 VHA’s Office of Capital Asset Management Engineering and Support (OCAMES)
        will send the annual VA Office of Management approved lease operation plan to
        Veterans Integrated Service Network Capital Asset Managers to be
        disseminated to the medical center Chief Engineers and Fiscal staff.

                                     In process 	                 September 30, 2014


   b. Veterans Affairs Medical Center Chief Engineers will request a Lease Accounting
      Classification Code (LG ACC) from VA’s Office of Assets Enterprise
      Management for all SCIP leases approved by OCAMES. Each approved lease
      will have an LG ACC number assigned to the project. The LC ACC will capture
      all lease cost associated with a project which will then be input into Financial
      Management System (FMS) for centralized tracking.

                                     In process 	                 September 30, 2014


Veterans Health Administration
September 2013




VA Office of Inspector General                                                          18
                                        Review of VA’s Management of Health Care Center Leases


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	           For more information about this report, please
                                              contact the Office of Inspector General at
                                              (202) 461-4720.

                      Acknowledgments         Paul M. Sondel, Director
                                              Candice Brown
                                              Vercie Davis
                                              Natalie Russell
                                              Shawn Steele
                                              Briana Webster




VA Office of Inspector General                                                             19
                                          Review of VA’s Management of Health Care Center Leases


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               20
